No. 20-989
In the

Supreme Court of the United States
__________________
CITY OF NEWARK,
Petitioner,
v.
FRATERNAL ORDER OF POLICE NEWARK LODGE NO. 12,
Respondent.
__________________
On Petition for Writ of Certiorari to the
New Jersey Supreme Court

__________________
BRIEF OF AMICUS CURIAE CITY OF JERSEY
CITY IN SUPPORT OF PETITIONER
__________________
VICTOR A. AFANADOR
Counsel of Record
JONATHAN CARRILLO
FRANCIS KENNY
LITE DEPALMA GREENBERG &
AFANADOR, LLC
570 Broad Street, Ste. 1201
Newark, NJ 07102
(973) 623-3000
vafanador@litedepalma.com

PETER BAKER
CORPORATION COUNSEL
CITY OF JERSEY CITY
208 Grove Street,
3rd Floor
Jersey City, New Jersey
07302
(201) 547-5229

Counsel for Amicus Curiae
February 25, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . ii
INTEREST IN AMICUS CURIAE . . . . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT. . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
I.

MUNICIPALITIES
CAN
ASSERT
CONSTITUTIONAL RIGHTS ON THEIR
OWN BEHALF AND ON BEHALF OF
THEIR RESIDENTS. . . . . . . . . . . . . . . . . . . . 5

II.

THE NEW JERSEY SUPREME COURT’S
DECISION VIOLATES NEWARK’S DUE
PROCESS RIGHTS . . . . . . . . . . . . . . . . . . . . . 7

III.

THE NEW JERSEY SUPREME COURT’S
DECISION VIOLATES THE POLITICAL
PROCESS DOCTRINE WITHIN THE
EQUAL PROTECTION CLAUSE . . . . . . . . 13

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

ii
TABLE OF AUTHORITIES
CASES
Alfred L. Snapp & Son, Inc. v. Puerto Rico Ex.
Rel. Berez, 458 U.S. 592 (1982) . . . . . . . . . . . . . . 6
City of Jersey City v. Jersey City PBA,
154 N.J. 555 (1998) . . . . . . . . . . . . . . . . . . . . . . . 16
F.C.C. v. Fox Television Stations, Inc.,
567 U.S. 239 (2012). . . . . . . . . . . . . . . . . . . . . . . 12
Fraternal Order of Police Newark Lodge No. 12 v.
City of Newark, 244 N.J. 75 (2020) . . . . . . . . 1, 10
Fraternal Order of Police Newark Lodge No. 12 v.
City of Newark, 459 N.J. Super. 458
(App Div. 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Gomillion v. Lightfoot,
364 U.S. 339 (1960). . . . . . . . . . . . . . . . . . . . . . . . 5
Grabowsky v. Twp. of Montclair,
221 N.J. 536 (2015) . . . . . . . . . . . . . . . . . . . . . . . 10
Grayned v. City of Rockford,
408 U.S. 104 (1972). . . . . . . . . . . . . . . . . . . . . 8, 12
Hunter v. Erickson,
393 U.S. 385 (1969). . . . . . . . . . . . . . . . . 13, 17, 18
In re Shain,
92 N.J. 524 (1983) . . . . . . . . . . . . . . . . . . . . . . . . 11
Inganamort v. Borough of Ft. Lee,
62 N.J. 521 (1973) . . . . . . . . . . . . . . . . . . . . . . . . . 8

iii
Keuerleber v. Twp. Of Pemberton,
260 N.J. Super. 541 (App. Div. 1992). . . . . . . . . . 9
U.S. v. City of Newark,
2:16-cv-1731, Dkt. No. 1 (DOJ Compl.) . . . . 13, 14
Reitman v. Mulkey,
387 U.S. 369 (1967). . . . . . . . . . . . . . . . . . . . . . . 17
Romer v. Evans,
517 U.S. 620 (1996). . . . . . . . . . . . . . . . . . . . . . . . 6
S. Macomb Disposal Auth. v. Twp. of Washington,
790 F.2d 500 (6th Cir. 1986). . . . . . . . . . . . . . . . . 5
Schuette v. Coalition to Defend Affirmative Action,
572 U.S. 291 (2014). . . . . . . . . . . . . . 13, 14, 17, 18
Twp. of River Vale v. Town of Orangetown,
403 F.2d 684 (2d Cir. 1968) . . . . . . . . . . . . . . . . . 6
W. Morris Reg’l Bd. Of Educ. v. Sills,
58 N.J. 464 (1971) . . . . . . . . . . . . . . . . . . . . . . . . . 8
Washington v. Seattle Sch. Dist. No. 1,
458 U.S. 457 (1982). . . . . . . . . . . . . . . . . . . passim
CONSTITUTIONS AND STATUTES
U.S. Const. amend. XIV . . . . . . . . . . . . . . . . . . . . . . 12
N.J.S.A. 40:69A-1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
N.J.S.A. 40A:14-118 . . . . . . . . . . . . . . . . . 7, 10, 11, 12
N.J.S.A. 40:48-2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
N.J.S.A. 40:69A-30 . . . . . . . . . . . . . . . . . . . . . . . . . . 10

iv
OTHER AUTHORITIES
Josh Bendor, Municipal Constitutional Rights: A
New Approach, 31 Yale L. & Pol’y Rev. 389
(2013). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Udi Ofer, Getting It Right: Building Effective
Civilian Review Boards to Oversee Police, 46
Seton Hall L. Rev. 1033 (2016) . . . . . . . . . . . . . 11

1
INTEREST OF AMICUS CURIAE1
Amicus, The City of Jersey City (“Jersey City”) is a
municipal corporation of the State of New Jersey (“New
Jersey”). Jersey City is the second largest City in New
Jersey with a population of approximately 262,000
people.
Like Petitioner, the City of Newark
(“Newark”), Jersey City is organized under the
statutory scheme of the Optional Municipal Charter
Law, N.J.S.A. 40:69A-1 to -210, (the “Faulkner Act”).
Both Newark and Jersey City’s municipal governments
are organized under the Mayor-Council plan C form of
government set forth in Sections 60.1 through 60.7 of
the Faulkner Act.
This case concerns amicus because the New Jersey
Supreme Court’s (“NJSC”) decision in Fraternal Order
of Police Newark Lodge No. 12 v. City of Newark, 244
N.J. 75 (2020) makes it impossible for New Jersey
municipalities to adequately meet their oversight and
investigatory duties because the NJSC has ruled that
municipally created oversight boards do not have
subpoena power or the power to conduct investigations
of civilian complaints concurrently with police
departments.
This is a watershed moment for municipalities in
the fight to confront police power, police misconduct,

1

Rule 37 statement: The parties were notified and consented to the
filing of this brief more than 10 days before its filing and both
Petitioner and Respondent filed blanket consents on the docket.
See Sup. Ct. R. 37.2(a). No party’s counsel authored any part of
this brief; amicus alone funded its preparation and submission.
See Sup. Ct. R. 37.6.

2
and police oversight. Civilian review boards are an
essential part of police reform. The police cannot be
properly controlled by the citizens they serve unless
those citizens are provided with the ability to
adequately investigate police action. Like Newark,
Jersey City seeks to respond to citizen demands for a
meaningful police civilian oversight board. Indeed, as
of the filing of this brief, an ordinance seeking the
creation of a civilian review board is being advanced in
Jersey City. The NJSC’s decision, however, has left
Jersey City and all other New Jersey municipalities
without adequate direction regarding how to create
meaningful civilian review boards that can help
address police accountability. In addition to the
reasons set forth in Newark’s Petition for Certiorari,
this case concerns amicus because it implicates a
municipal corporation’s and its citizens’ constitutional
rights under the Due Process Clause and Equal
Protection Clause of the Fourteenth Amendment.

3
SUMMARY OF THE ARGUMENT
Amicus urge this Court to accept Newark’s Petition
for Certiorari and intervene to ensure that the decision
of a state supreme court cannot cause or sanction
constitutional injury.
Newark passed Municipal Ordinance 6PSF-B
(“Ordinance”) creating a Civilian Complaint Review
Board (“CCRB”) to comply with a Federal Court
Consent Decree that resolved a lawsuit filed by United
States Department of Justice (“DOJ”) against Newark.
The DOJ’s lawsuit was filed after a three-year
investigation demonstrated that the Newark Police
Department (“NPD”) engaged in a pattern and practice
of constitutional violations, which disproportionately
affected Black civilians.
One of the purposes of the Federal Consent Decree
was to order Newark to create an independent civilian
oversight and investigatory board capable of
adequately confronting police misconduct. By stripping
Newark of its right to pass local legislation in an area
that New Jersey has specifically empowered
municipalities to legislate in, the NJSC made it
impossible for Newark to follow the Federal Court
Order. Moreover, the NJSC’s decision triggered federal
constitutional issues by: (1) denying New Jersey
municipalities their statutory and constitutional right
to oversee and investigate the police; (2) violating the
requirement that the government articulate its aims
with reasonable clarity resulting in a Due Process
violation; and (3) by making it difficult for citizens to
implement policies at the local level that help remedy
the unconstitutional disparate treatment of minorities

4
by the police in violation of the Equal Protection
Clause.
The NJSC divested Newark and the CCRB of
necessary powers. In doing so, the NJSC condemned
the CCRB in Newark and all other civilian review
boards like it in New Jersey, to inutility. The promise
of effective civilian oversight boards, capable of truly
policing law enforcement, has been broken. The
promise explicitly set forth in New Jersey’s constitution
and legislative scheme, that municipalities can govern
the police, has been broken.
The NJSC’s decision fails to appreciate that in its
wake, the statutory scheme that municipalities must
follow to comply with their police oversight duties, does
not contain anywhere near the level of specificity
required by the state and federal constitutions. This
level of vagueness is unconstitutional.
The decision also fails to appreciate that the goals
and aspirations of civilian oversight boards, like the
CCRB in Newark, are inextricably tied to the goals and
aspirations of the most marginalized citizens in New
Jersey. By ruling that Newark cannot grant its CCRB
the necessary investigatory powers to help curb police
misconduct, the NJSC has effectively sanctioned the
continued violation of minorities’ Equal Protection
rights under the Political Process Doctrine.
This Court should grant the Petition for Certiorari
to finally announce that municipalities have
constitutionally protected rights, that those rights
cannot be abridged by state action that renders a
legislative framework vague, and that the Political

5
Process Doctrine of the Equal Protection Clause
disallows state action that prohibits minorities from
passing local ordinances to help curb police abuse in
their communities.
ARGUMENT
I.

M UNIC I P A L I T I E S
CAN
ASSERT
CONSTITUTIONAL RIGHTS ON THEIR
OWN BEHALF AND ON BEHALF OF
THEIR RESIDENTS.

Federal District Courts and Circuit Courts of
Appeals throughout this nation have repeatedly held
that “a municipal corporation, in its own right, receives
no protection from the Equal Protection or Due Process
Clauses vis-à-vis its creating state.” S. Macomb
Disposal Auth. v. Twp. of Washington, 790 F.2d 500,
504 (6th Cir. 1986). This is in large part due to the
municipality’s historical status as an instrumentality
of the state. However, under certain circumstances,
such as those now presented to this Court, a
municipality must be allowed to assert due process and
equal protection rights when doing so is necessary for
furthering the principles of fundamental fairness and
equality.
This Court “has never acknowledged that the States
have power to do as they will with municipal
corporations regardless of consequences. Legislative
control of municipalities, no less than other state power,
lies within the scope of relevant limitations imposed by
the United States Constitution.” Gomillion v. Lightfoot,
364 U.S. 339, 344-45 (1960) (emphasis added). “When
a state exercises power wholly within the domain of

6
state interest, it is insulated from federal judicial
review. But such insulation is not carried over when
state power is used as an instrument for circumventing
a federally protected right.” Id. at 347. Indeed, this
Court “has allowed municipalities to participate,
alongside individuals, in constitutional litigation
against the state [,] . . . [thereby indicating] that
municipalities can suffer injury . . . when states violate
the constitutional rights of their residents.” Josh
Bendor, Municipal Constitutional Rights: A New
Approach, 31 Yale L. & Pol’y Rev. 389, 391 (2013) (first
citing Romer v. Evans, 517 U.S. 620 (1996) (rejecting–
under the Equal Protection Clause, an attempt by
voters to restructure the political process and remove
from local municipalities the power to pass ordinances
that prohibited discrimination against gay citizens);
then citing Washington v. Seattle Sch. Dist. No. 1, 458
U.S. 457 (1982) (see Point III, infra)).
Courts have permitted municipalities to assert
constitutional rights on their own behalf, thereby
treating municipalities as “persons.” See Twp. of River
Vale v. Town of Orangetown, 403 F.2d 684 (2d Cir.
1968) (holding that a municipal corporation is entitled
to Due Process protection under the Fourteenth
Amendment against a municipality in a neighboring
state). Likewise, this Court has spoken approvingly of
a public corporation’s ability to pursue claims and
assert rights on behalf of its residents in the same way
that a private corporation or non-profit can assert
constitutional claims on behalf of its members. See
Alfred L. Snapp & Son, Inc. v. Puerto Rico Ex. Rel.
Berez, 458 U.S. 592 (1982) (Brennan, J., concurring).
Here, the NJSC’s decision violated Newark’s

7
constitutional rights under the Due Process Clause and
violated the rights of Newark’s citizens under the
Equal Protection Clause. This Court should not allow
a municipality and its citizens to suffer constitutional
injury without redress because of antiquated and
misplaced notions of State hegemony.
II.

THE NEW JERSEY SUPREME COURT’S
DECISION VIOLATES NEWARK’S DUE
PROCESS RIGHTS.

Newark acted in accordance with the broad police
powers provided to it through the New Jersey State
Constitution, state statutes, and longstanding state
jurisprudence in creating a CCRB with strong
oversight authority. After years of litigation regarding
the viability of the Ordinance, the NJSC determined
that Newark’s CCRB, while technically legal, should:
(1) be disallowed from conducting investigations of
civilian complaints concurrently with the NPD; and
(2) be precluded from issuing subpoenas. The NJSC’s
decision leaves Newark’s right and duty to oversee its
police department under N.J.S.A. 40A:14-118 “intact,”
but simultaneously strips Newark of the tools it needs
to meaningfully execute its statutory responsibilities.
The NJSC’s decision not only prevents concurrent
investigations and the issuance of subpoenas, but also
prevents the CCRB from proper review and critique of
the handling of internal affairs investigations after
they are complete. By making it impossible for
municipalities like Newark and Jersey City to
meaningfully execute, apply and understand the laws
regarding the creation of civilian review boards, the
NJSC has rendered the statutory framework vague as

8
the parameters of that framework “are not clearly
defined.” Grayned v. City of Rockford, 408 U.S. 104,
108 (1972).
Additionally, under New Jersey’s well-settled laws
pertaining to municipal police powers, municipal
corporations have long possessed protectable property
and liberty interests and any effort by the State, in this
case the NJSC, to deprive a municipality of those
interests triggers procedural due process protections.
It is important to the health and efficiency of state and
local government relations that the Due Process Clause
of the Fourteenth Amendment be read to require states
to observe at least minimal procedural due process
rights for their municipal corporations. Anything less
would sanction unbridled impairment of a municipal
corporation’s protectable interests.
In New Jersey, “[h]ome rule is basic in our
government” and “embodies the principle that the
police power of the State may be invested in local
government to enable local government to discharge its
role . . . and to meet other needs of the community.”
Inganamort v. Borough of Ft. Lee, 62 N.J. 521, 528
(1973). Essentially, home rule not only permits and
encourages, but demands that municipalities govern in
a manner best suited to “meet the local need.” W.
Morris Reg’l Bd. Of Educ. v. Sills, 58 N.J. 464, 477
(1971). This is codified in Article IV § VII, ¶ 11 of the
New Jersey State Constitution, which provides that:
The provisions of this Constitution and of any
law concerning municipal corporations formed
for local government . . . shall be liberally
construed in their favor. The powers of . . . such

9
municipalities shall include not only those
granted in express terms but also those of
necessary or fair implication, or incident to the
powers expressly conferred or essential
thereto[.]
N.J.S.A. 40:48-2, which is New Jersey’s analogue to
the federal Necessary and Proper Clause, grants
sweeping police power to municipalities:
“[a]ny municipality may make . . . and enforce
. . . ordinances . . . it may deem necessary and
proper for the good government, order and
protection of persons and property, and for the
preservation of the public health, safety and
welfare of the municipality and its inhabitants.”
New Jersey Courts have “consistently held
[N.J.S.A. 40:48-2] is itself a reservoir of police power.”
Fraternal Order of Police Newark Lodge No. 12 v. City
of Newark, 459 N.J. Super. 458, 511 (App Div. 2019).
Thus, municipalities in New Jersey have long believed,
and reasonably so, that the State has imbued them
with sweeping police powers.
Notably, Jersey City and Newark both operate
under the Faulkner Act form of government which was
“intended to confer upon the municipalities the
greatest possible powers of local self-government and
home rule consistent with the Constitution of this
State.” Keuerleber v. Twp. Of Pemberton, 260 N.J.
Super. 541, 544 (App. Div. 1992). As the text of the
Faulkner Act makes clear, “[a]ll grants of municipal
power to municipalities governed by an optional plan
under this act . . . shall be liberally construed as

10
required by the Constitution of this State, in favor of
the municipality.” N.J.S.A. 40:69A-30 (emphasis
added). Accordingly, municipal ordinances, like the
Newark Ordinance, are “afforded a presumption of
validity.” Grabowsky v. Twp. of Montclair, 221 N.J.
536, 551 (2015).
Here, the NJSC failed to afford that presumption of
validity to Newark’s Ordinance.
That failure
contravenes N.J.S.A. 40A:14-118, which governs the
creation of police forces and explicitly declares:
[n]othing herein contained shall prevent the
appointment by the governing body of
committees or commissions to conduct
investigations of the operation of the police force,
and the delegation to such committees or
commissions of such powers of inquiry as the
governing body deems necessary or to conduct
such hearing or investigation authorized by law.
Despite N.J.S.A. 40A:14-118’s clear grant of
municipal authority to investigate and the absence of
any limiting language regarding how municipalities
should investigate, the NJSC inexplicably read certain
prohibitions into the statute. The empirical evidence,
however, shows that to adequately investigate the
police, a CCRB must have those powers. As Chief
Justice Stuart Rabner of the NJSC explained in his
dissenting opinion, “[t]he power to investigate the
operation of the police force necessarily encompasses
the power to investigate its performance.” Fraternal
Order of Police, Newark Lodge No. 12, 244 N.J. at 115.
The NJSC’s decision makes it impossible for Newark
or any other similarly situated municipality to

11
comprehend the statutory scheme or implement
N.J.S.A. 40A:14-118 in a meaningful way. The NJSC’s
decision wholly undermines the very purpose of a
CCRB.
The NJSC determined that the New Jersey
Attorney General’s Guidelines on Internal Affairs
Policy & Procedures (“IAPP”) requires that internal
affairs investigations remain self-contained within the
law enforcement silo, and as such, a CCRB cannot have
concurrent jurisdiction over a police misconduct
investigation. See N.J.S.A. 40A:14-181 (directing local
law enforcement to adopt and implement guidelines for
internal investigations). However, the plain language
of N.J.S.A. 40A:14-181 does not control or even
mention local review boards like the CCRB; instead, it
only mentions law enforcement agencies.
Similarly, the NJSC’s decision to strip the CCRB of
its subpoena power disregards the fact that the
Legislature explicitly empowered municipalities to
investigate and oversee the police under N.J.S.A.
40A:14-118, and that a municipality in New Jersey has
inherent authority to conduct investigations and to
issue subpoenas, even if that authority is not “expressly
stated” in a statute. In re Shain, 92 N.J. 524, 530-31
(1983). Of course, “[a] civilian review board will only be
as strong as its authority to conduct independent
investigations, and at the heart of such authority must
be the ability to subpoena witnesses and documents.”
Udi Ofer, Getting It Right: Building Effective Civilian
Review Boards to Oversee Police, 46 Seton Hall L. Rev.
1033, 1041-43, 1053-61 (2016). Through its actions, the
NJSC has gutted Newark’s CCRB and has made it

12
impossible for Newark and its sister municipalities to
know how to properly oversee the police as required by
N.J.S.A. 40A:14-118.
As a result of the NJSC’s decision, municipalities
like Newark and Jersey City do not know how to create
and implement meaningful CCRB’s to help curb police
misconduct. The Fourteenth Amendment provides that
no state “shall . . . deprive any person of life, liberty, or
property, without due process of law.” U.S. CONST.
AMEND. XIV.
This Court has invoked
the Due Process Clause to void a statute if it is
excessively vague, i.e., “its prohibitions are not clearly
defined.” Grayned, 408 U.S. at 108.
The vagueness doctrine “addresses at least two
connected but discrete due process concerns: first, that
regulated parties should know what is required of them
so they may act accordingly; second, precision and
guidance are necessary so that those enforcing the law
do not act in an arbitrary or discriminatory way.”
F.C.C. v. Fox Television Stations, Inc., 567 U.S. 239,
253 (2012); see also Grayned, 408 U.S. at 10809 (stating that vague laws “offend several important
values” including “fair notice” and “explicit standards
for those who apply them,” which are the “basic
principles of due process”). Both concerns apply here.
As a result of the NJSC’s decision, Newark and
Jersey City are in the unenviable position of trying to
figure out how to create an effective CCRB that
complies with: (1) the statutory and constitutional
mandate to oversee and investigate the police; and
(2) the NJSC’s interpretation of the statutory scheme
that renders it impossible for them to create a CCRB

13
that can accomplish its goals. Newark and Jersey City,
facing residents that are clamoring for the creation of
a CCRB that can help curb the scourge of police
misconduct, know not what to do. That confusion
stems directly from the NJSC’s decision that has left
municipalities incapable of adequately meeting the
needs of their residents on an issue of local concern and
grave importance. Where a state action renders a
statutory scheme so vague that it prevents those
required to follow the dictates of the scheme from
determining how to do so, that state action violates the
Due Process Clause. The NJSC’s decision prohibiting
Newark’s CCRB from conducting concurrent
investigations and issuing subpoenas violates Newark’s
Due Process Rights.
III.

THE NEW JERSEY SUPREME COURT’S
DECISION VIOLATES THE POLITICAL
PROCESS DOCTRINE WITHIN THE
EQUAL PROTECTION CLAUSE.

The NJSC’s decision violates the Political Process
Doctrine of the Equal Protection Clause of the
Fourteenth Amendment under Hunter v. Erickson, 393
U.S. 385 (1969), Washington v. Seattle Sch. Dist. No. 1,
458 U.S. 457 (1982), and Schuette v. Coalition to
Defend Affirmative Action, 572 U.S. 291 (2014).
In 2014, after a three-year investigation, the DOJ
concluded that the NPD engaged in a pattern and
practice of constitutional violations that
disproportionately impacted Black civilians. See Pet’r’s
Br. 3-5. The DOJ sued Newark and alleged that the
NPD violated the First, Fourth, and Fourteenth
Amendment rights of Black citizens. See U.S. v. City of

14
Newark, 2:16-cv-1731, Dkt. No. 1 (DOJ Compl.), ¶¶2930. That case was resolved by entry of a Consent
Decree, that among other things, directed Newark to
create a CCRB. See Pet’r’s Br. 5.
In 2016, to comply with the Consent Decree,
Newark passed the Ordinance establishing the CCRB.
Newark’s decision-making body vested the CCRB with
subpoena power and the authority to conduct
concurrent investigations of citizen complaints with the
NPD to address and redress the serious deficiencies in
the NPD’s handling of civilian complaints.
The NJSC’s decision stripping the CCRB of those
powers “changed the rules in the middle of the game.”
Schuette, 572 U.S at 340 (Sotomayor, J., dissenting).
The NJSC’s decision “removes the authority to address
a racial problem—and only a racial problem—from the
existing decision-making body, in such a way as to
burden minority interests.” Seattle, 458 U.S. at 474.
Such action violates longstanding Equal Protection
dictates that prohibit “‘a political structure that treats
all individuals as equals,’ yet more subtly distorts
governmental processes in such a way as to place
special burdens on the ability of minority groups to
achieve beneficial legislation.” Id. at 467.
In Seattle, Seattle’s School District No. 1 enacted a
desegregation plan that aimed to use mandatory
busing to help achieve racial integration. Id. at 461.
Opponents sought a statewide initiative “designed to
terminate the use of mandatory busing for purposes of
racial integration.” Id. at 462. A majority of
Washington’s citizens approved the initiative. Id. at
463-464.

15
This Court invalidated the initiative under the
Equal Protection Clause of the 14th Amendment,
because “racial or ethnic groups may not be denied the
franchise, or precluded from entering into the political
process in a reliable and meaningful manner.” Id. at
467. Moreover, this Court held that State action that
“places special burdens on racial minorities within the
governmental process,” by making it “more difficult for
certain racial and religious minorities” than for other
members of the community “to achieve legislation . . .
in their interest” is not allowed. Id. at 470. This Court
found that that the desegregation of public schools in
Seattle, “inure[d] primarily to the benefit of the
minority, and [was] designed for that purpose.” Id. at
472. Ultimately, because the initiative removed
authority to address a racial problem from the local
decision-making body, the Court held that “the
practical effect of [the Initiative] is to work a
reallocation of power of the kind condemned in
Hunter.” Id. at 474.
In Seattle, this Court reviewed Washington’s
statutory structure and determined that until the
passage of the Initiative, “Washington law in fact had
established the local school board, rather than the
State, as the entity charged with making decisions of
type at issue. . .” Id. at 477. The Court found that
“Washington chose to meet its educational
responsibilities primarily through state and local
officials, boards, and committees and that the
responsibility to devise and tailor educational programs
to suit local needs was emphatically vested in the local
school boards.” Id. The Court noted that while States
traditionally have been accorded the widest latitude in

16
ordering their internal governmental processes, and
school boards are creatures of the State, the issue was
not whether “. . .Washington has the authority to
intervene in the affairs of local school boards; it is,
rather, whether the State has exercised that authority
in a manner consistent with the Equal Protection
Clause.” Id. at 476. Having chosen to empower local
school boards with authority to address issues like
busing and ultimately desegregation of schools,
Washington chose “to make use of a more complex
governmental structure” and the State’s creation of this
political structure prevented it from removing that
power from the local school board, even if most
Washington citizens voted to remove it. Id.
Newark’s case is analogous to Seattle. First, New
Jersey’s statutory structure and scheme gives
municipalities the responsibility for oversight and
investigation of the local police. “The courts and the
Legislature have long recognized that because police
officers are different from other public employees, the
scope of discretion accorded to the public entities that
administer police departments is necessarily broad.”
City of Jersey City v. Jersey City PBA, 154 N.J. 555, 572
(1998). Like Washington, New Jersey chose to make
use of a more complex governmental structure for
police oversight. New Jersey chose to meet its police
oversight responsibilities primarily through
municipalities and their local officials, boards, and
governing bodies. So much so in fact, that nothing in
the relevant statutes or IAPP reviewed by the NJSC
explicitly prohibited Newark’s CCRB from possessing
subpoena power or the power to conduct investigations
concurrently with the NPD. That statutory silence is

17
a concession that municipalities in New Jersey can
fashion CCRB’s as they see fit and give powers to
CCRBs that make the most local sense.
Faced with its history of police abuse, data showing
that Black citizens are disproportionately impacted by
police misconduct, and a federal Consent Decree
ordering the creation of a CCRB, Newark enacted an
Ordinance to achieve beneficial legislation for its
citizens. How to achieve that beneficial legislation was
for Newark’s decision-making body to determine. Here,
the NJSC unconstitutionally nullified Newark’s
decision-making authority over this issue. Like the
state of Washington in Seattle, the NJSC’s decision has
the effect of modifying “the community’s political
mechanisms” placing “effective decision-making
authority over a racial issue at a different level of
government.” Id. at 474.
This Court most recently considered the Political
Process Doctrine in Schuette. 572 U.S. 291. Schuette
involved a challenge to a Michigan constitutional
amendment prohibiting affirmative action in public
education.
Id.
This Court’s plurality opinion
admittedly rejected a broad reading of Hunter and
Seattle, id. at 303-09, but stopped short of overturning
the Political Process Doctrine. Instead, this Court
distinguished Schuette from Hunter and Seattle. The
plurality explained that the Political Process Doctrine
line of cases, Hunter, Seattle, and Reitman v. Mulkey,
387 U.S. 369 (1967), “were ones in which the political
restriction in question was designed to be used, or was
likely to be used, to encourage infliction of injury by
reason of race.” 572 U.S. at 314. In contrast, the

18
plurality explained that the Michigan ban in Schuette
did not involve a restriction on the ability of a political
subdivision to enact laws addressing past or ongoing
racial discrimination. Id.
The plurality decision in Schuette recast the
Political Process Doctrine by holding that restructuring
is impermissible when “the state action in question . . .
had the serious risk, if not purpose, of causing specific
injuries on account of race.” Id. at 330. (Scalia, J.,
concurring). However, even under Hunter and Seattle,
or the recast Political Process Doctrine announced in
Schuette, the NJSC’s decision still violates Newark and
its citizens’ Equal Protection rights. Unlike the
Michigan law at issue in Schuette, this case involves
the type of action that the Political Process Doctrine
was designed to address.
By removing local
government power, in a facially neutral manner to
regulate, investigate, and oversee the police, the
NJSC’s decision will lead to the serious risk of injuries
on account of race.
Indeed, the federal government reached that very
conclusion which lead to the federal Consent Decree
ordering the creation of a CCRB in the first place. The
NJSC utterly ignored the racial focus of the Newark
Ordinance and the underlying fact that without the
Ordinance, minorities in Newark would continue to be
disparately impacted by police misconduct.
Consequently, the NJSC’s decision makes it impossible
for minorities to adequately remedy the abuse that
plagues police departments in their communities.
Therefore, this Court should grant Newark’s
Petition for Certiorari because the NJSC’s decision

19
violates the Political Process Doctrine and the Equal
Protection Clause of the 14th Amendment. The NJSC
altered the procedures of government in a way that
prevents: (1) the redress of racial injuries; and
(2) minorities from achieving the passage effective local
legislation to combat racial injuries. This case presents
this Court with an opportunity to establish that state
action, in any form, cannot prohibit historically
marginalized groups from achieving the promise of
meaningful and equal participation in self-government.
See Id. at 342 (Sotomayor, J., dissenting).
CONCLUSION
For the reasons stated in the Petition for Writ of
Certiorari and in this Amicus Curiae brief, this Court
should grant Newark’s Petition for a Writ of Certiorari.
Respectfully submitted,
VICTOR A. AFANADOR
Counsel of Record
JONATHAN CARRILLO
FRANCIS KENNY
LITE DEPALMA GREENBERG &
AFANADOR, LLC
570 Broad Street, Ste. 1201
Newark, NJ 07102
(973) 623-3000
vafanador@litedepalma.com

PETER BAKER
CORPORATION COUNSEL
CITY OF JERSEY CITY
208 Grove Street,
3rd Floor
Jersey City, New Jersey
07302
(201) 547-5229

